U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 25, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Zanian Munize Jordan v. United States,
S.Ct. No. 20-256

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 28,
2020, and placed on the docket on September 1, 2020. The government’s response is due on
October 1, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 2, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0256
JORDAN, ZAVIAN MUNIZE
USA

MARCIA G. SHEIN
LAW FIRM OF SHEIN & BRANDENBURG
2392 NORTH DECATUR RD.
DECATUR, GA 30033
404-633-3797
MARCIA@MSHEINLAW.COM

